The USPS Global Card: A Conceptual Analysis
         of a Smart Card Platform




                            February 13, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-12-006
U.S. Postal Service Office of Inspector General                                                   February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                       RARC-WP-12-006


    The USPS Global Card: A Conceptual Analysis of a Smart
                       Card Platform

                                         Executive Summary

The digital revolution has radically transformed the world, driving innovation, improving
interconnectedness, and providing instant access to information and knowledge.
However, this rapid shift toward a more digital world is not without its imperfections. The
fragmented nature of communications in the current digital landscape has left
consumers open to substantial risk resulting from a lack of adequate infrastructure to
secure transactions, assure privacy in communications, and allow integration of digital
and physical messages and data. As the 21st century and the Information Age continue
to evolve, there is an increasingly apparent need for a secure digital environment that
respects consumer privacy while also improving the efficiency and convenience of daily
transactions and information management.

Given its federally mandated mission to promote commerce, communication, and
transactions to bind the nation together, in addition to its vast infrastructure and core
competencies, the United States Postal Service is positioned to play a significant role in
providing solutions to problems of the digital age. In its paper The Postal Service Role in
the Digital Age Part 2: Expanding the Digital Platform, 1 the U.S. Postal Service Office of
Inspector General (OIG) Risk Analysis Research Center (RARC) constructs a digital
strategy for the Postal Service that would enable it to extend its physical platform into
the digital sphere and “provide needed solutions through a suite of digital products and
services.”

This paper expands that analysis by introducing the concept of a Postal Service-offered
smart card that could be called the “USPS Global Card.” This postal-centric version of a
smart card would not only provide consumers with an access key to current and future
postal services and other government and commercial applications, but could be
enhanced over time to also provide consumers with an increased level of security and
privacy in daily transactions, information management, and data storage wholly
unmatched by today’s alternatives. Beyond security and privacy improvements, the
smart card design would allow the Global Card to act as a conveniently portable
platform for multiple application solutions including identification, authentication, and
data storage, among others. The paper presents the following highlights:

1. The ongoing rapid shift toward digital communications, commerce, and transactions
   has left consumers’ personal information exposed to misuse and fraud. The Postal
   Service Global Card would provide consumers with a secure and private, yet


1
 U.S. Postal Service Office of Inspector General, The Postal Service Role in the Digital Age Part 2: Expanding the
Digital Platform, Report No. RARC-WP-11-003, April19, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-
003.pdf.


                                                          i
U.S. Postal Service Office of Inspector General                                                    February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                        RARC-WP-12-006


    convenient and efficient, option for performing daily transactions and storing data in
    both the digital and physical worlds.

2. To maximize seamless integration into consumer lifestyle, the Global Card would be
   offered in two formats: in a credit card-like form and integrated with a mobile phone’s
   Subscriber Identity Module (SIM) card.2 Either format would offer full functionality
   and serve consumer needs.

3. In recognition of the increasing trend toward consumer control in communications,
   the Global Card design is consumer-centric. While it is likely that other entities would
   provide similar products, they would not have the same consumer focus. The card
   itself is optional (upon request), as are all card applications. Similarly, the user
   chooses security and privacy settings based on personal preference and need.

4. The card’s microprocessor and associated operating system would increase
   consumer convenience by enabling the user to load multiple applications onto the
   card, including, but not limited to postal, eGovernment, eCommerce, and data
   storage applications. Applications are segregated from one another ensuring data
   required by one application cannot be accessed by others.

5. To further increase the card’s functional flexibility and convenience, the Global Card
   would be a dual-interface card, enabling data to be read from and written to using
   both contact and contactless card readers.

6. The Global Card could serve as an e-Identification system, thus acting as a solution
   to inadequate authentication measures in the digital and physical worlds. As a basic
   feature, this application would allow consumers to obtain two digital certificates, one
   to be used for electronic authentication, while the other provides the user with a
   digital signature.

7. Additionally, the Global Card would serve as an access key to current and future
   Postal Service products and services such as gopost.™ Perhaps most notably, the
   Global Card could be linked to a user’s eMailbox, providing the user with increased
   privacy control in transactions requiring physical address information. Similarly,
   when linked to a user’s eLockbox, the Global Card serves as a powerful, portable,
   secure storage tool for sensitive information.

8. The Postal Service is uniquely positioned to work with the federal government to
   provide eGovernment services to citizens. The Global Card could facilitate these
   services by providing a secure method of citizen identity verification and creating a
   way to receive and access government benefits, including Social Security payments,
   food stamps, and Medicare benefits, among others.


2
  A SIM card is a type of smart card that stores data such as identity, phone number, contact lists, and network
authorization for Global System for Mobile (GSM) communication cellular telephone subscribers. In addition to
improving security for subscribers through features such as authentication and encryption, a SIM card can be
conveniently switched from one phone to another, transferring the user’s data with it.


                                                           ii
U.S. Postal Service Office of Inspector General                             February 13, 2012
The USPS Global Card: A Conceptual Analysis                                 RARC-WP-12-006


9. The functional possibilities of the card are endless. As an open and flexible platform,
   the Global Card is intended to provide third parties with an appropriate forum to
   innovate and provide consumers with any number of useful applications.

10. As a smart card, the Global Card offers consumers an increased level of security
    and privacy unmatched by traditional magnetic stripe cards as well as online
    username and password identity management systems, rendering it a powerful
    antifraud and identity theft prevention tool. It would employ advanced encryption to
    transfer information to and from the card.

11. The Global Card allows for a number of security and privacy control precautions to
    be established, thereby further increasing security and privacy in digital and physical
    transactions. These include, but are not limited to, multifactor authentication, use of
    biometric indicators in identity verification, data encryption, and enabling binary
    response authentication.

12. Current Postal Service infrastructure, including its nationwide physical presence, its
    online access point, and its law enforcement element, provide immediate assistance
    and protection against fraud and identity theft in the event of a lost or stolen card.

The Postal Service would be one of a number of multifunction smart card providers on
the market. However, its features would set it apart from others: meeting the needs of
the underserved, operating as a gateway to e-government, and offering a level of legal
standing that many cards cannot provide.

This paper presents a unique opportunity for the Postal Service to leverage its valuable
assets and its mandated role in the communications infrastructure, while also improving
the quality of life for American citizens in a rapidly changing and mobile world. The
USPS Global Card would offer consumers a solution to security and privacy concerns
while also improving convenience and efficiency in daily transactions and data storage
and management.




                                                  iii
U.S. Postal Service Office of Inspector General                                                                 February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                                     RARC-WP-12-006




                                                  Table of Contents

Introduction ..................................................................................................................... 1 

Product Description ......................................................................................................... 1 
          Basic Features...................................................................................................... 3 
          Optional Features ................................................................................................. 5 

Security ........................................................................................................................... 6 

The Registration Process ................................................................................................ 8 

Business Model ............................................................................................................... 9 

Conclusion ...................................................................................................................... 9 


                                                             Table

Table 1                 eID Systems in Other Countries ............................................................ 4 


                                                           Figures

Figure 1                The USPS Global Card ......................................................................... 3 

Figure 2                The USPS Global Card Registration Process........................................ 8 




                                                                  iv
U.S. Postal Service Office of Inspector General                                              February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                  RARC-WP-12-006




    The USPS Global Card: A Conceptual Analysis of a Smart
                       Card Platform

Introduction
The digital revolution has radically transformed the world, driving innovation and
improving interconnectedness and instant access to information and knowledge. The U.S.
Postal Service Office of Inspector General Risk Analysis Research Center (RARC) is
presently involved in a comprehensive research effort intended to examine the impact of
the digital revolution on communications and commerce and how the Postal Service may
leverage its infrastructure and competencies to better support the increasingly digital
world. The first of these papers, The Postal Service Role in the Digital Age Part 1: Facts
and Trends,3 finds that, while the digital revolution has afforded individuals greater
convenience and efficiency in daily communications and transactions, it has
simultaneously given rise to a number of security and privacy concerns. As a growing
volume of services and activities go digital, individuals control less of their personal data,
inadvertently exposing private information to misuse or fraud.

The Postal Service could help counteract some of these ongoing privacy and security
concerns in conjunction with its new gopost™ parcel locker network. To provide
customers access to the parcel locker stations’ services, the Postal Service has
announced its intention to use a card system. However, rather than adopting a single-
function card, a chip-embedded smart card system may offer the Postal Service a better
opportunity to leverage its existing infrastructure and competencies. The smart card
envisioned would not only provide access to the gopost network, but could also provide
customers with an access key to the postal infrastructure and a wide range of other
current and future services. Furthermore, the higher security and privacy afforded by the
smart card design would allow the card to act as a conveniently portable platform for
multiple application solutions including identification, authentication, and data storage,
among others.

This concept paper explores the potential design and functionality of a Postal Service–
offered smart card. The multiple applications and security features of the card are guided
by its intended purpose: to provide consumers with a secure and private, yet convenient
and efficient, option for performing daily transactions and data storage in both the digital
and physical worlds.

Product Description
The term “smart card” refers to a plastic card containing an embedded computer chip that
stores and processes data and conducts business transactions. Smart cards often
resemble credit cards in size and shape, although smart card technology is also
3
 U.S. Postal Service Office of Inspector General, The Postal Service Role in the Digital Age Part 1: Facts and
Trends, Report No. RARC-WP-11-002, February 24, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-002.pdf.


                                                       1
U.S. Postal Service Office of Inspector General                                                February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                    RARC-WP-12-006


frequently used for telecommunications applications in Subscriber Identity Modules (SIM).
Smart card systems can vary widely from one another depending on the type of chip
embedded in the card, the type of data stored on the card, and how that data is written
and retrieved.

The purpose of the Global Card is to provide users with an option to improve security and
privacy in daily transactions in both the physical and digital worlds, while also increasing
the efficiency and convenience with which these        The purpose of the Global Card is
transactions are executed. With this purpose in        to provide users with an option to
mind, the Global Card would resemble a credit          improve security and privacy in
card in size and shape so as to be easily              daily transactions in both the
incorporated into a user’s daily activities.           physical and digital worlds.
However, to maximize the card’s flexibility as
well as its appeal to a variety of consumer preferences, it could also be integrated into
mobile phone’s SIM card. While the latter of these options is likely to appeal to a younger,
more mobile device-savvy population, it offers all consumers the opportunity to further
increase the utility of mobile phones in daily transactions and data management.4 Either
format would offer the full function and serve consumer needs.

Additionally, the card, whether offered in a credit card-like form, as a SIM card, or both,
would contain a microprocessor that would allow it to both manage and process data.
Much like a personal computer, the Global Card would organize data into the appropriate
file; each file is, in turn, associated with an application. By compartmentalizing data into
files, the card enables access control, allowing each application to access only the data
essential to its purpose. For example, when making a purchase online, the eRetailer
would only be granted access to the credit card information specified by the user; access
to other stored information, such as the consumer’s medical records or a pointer to those
records, would be prohibited and vice versa. Rules regarding data security through
application segregation and other basic platform-level security features such as
encryption are typically controlled and enforced by the smart card’s operating system.

Given a rising interest in multi-application smart cards, there are currently a number of
readily available operating systems to choose from when designing the Global Card.
Beyond the basic security afforded by compartmentalizing data and ensuring the
segregation of applications, the multifunctionality of the Global Card also affords much
greater convenience as it allows users the option to consolidate multiple cards into one.

Typically, smart cards rely on an external card reader to interface with a PC for most
transaction needs, including reading and writing to the card. The Global Card would be a
dual-interface card, which allows for communication between the card’s single
microprocessor and a reader via both contact and contactless devices.5 Contact
communication requires a physical connection between the smart card and a card reader.
This type of communication is most commonly used for ID and stored value applications.
Contactless communication, on the other hand, relies on a radio frequency to connect to
4
 Service would likely require a partnership with wireless providers.
5
 Development of such an application would need to be compatible with technology specifications such as ISIS or
Google Wallet.


                                                        2
U.S. Postal Service Office of Inspector General                                                                              February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                                                  RARC-WP-12-006


the card and is most commonly used with payment and physical access control
applications. Allowing for multiple modes of communication ensures the card’s functional
flexibility. Finally, given that card functions are likely to change as new applications
become available, the card would optimally have a dynamic application operating system,
which would allow updates and other changes to be downloaded after card issuance, as
they become available.

                                                Figure 1: The USPS Global Card

                    Information                                                                    Access to Postal Services
                                                                                                  •Access Key to Postal Services (i.e.
         •Basic Electronic ID (includes photo                                                      hybrid mail, stamps, change of
          and optional biometric indicator)                                                        address, shipping labels, gopost)
         •Digital Signature                                                                       •eMailbox Authentication
         •Secure Online ID Authentication                                                         •Portable eLockbox with added levels
                                                                                                   of security
         •Medical Record/Information
                                                                                                  •Card cancellation/replacement
         •Data and Document Storage                                                                services available via USPS

                                                  USPS Global Card
                                                                                                   physical and online access points.

                                                                                        Insert 
                                                             SIGNATURE:                Picture 
                                                             Jane A Sample               Here
                                                  CARD NO.
                                                  1234 5432 1024 6811
                                                  NAME:                       UNITED STATES
                                                  JANE A SAMPLE               POSTAL SERVICE

                  Transactions:                                                                     E-Government Services:
         •Pre-Paid Digital Currency
                                                                                                  •Electronically Sign Official
         •Electronic Wallet for E-Commerce
                                                                                                   Documents
         •Contactless Payment (i.e. tolls,
          public transit, etc.)                                                                   •Receive Government Payments and
                                                                                                   Benefits (i.e. tax refunds)
         •Secure Electronic Bill Pay and Time
          Stamp                                                                                   •Access Medicare Benefits
         •Loyalty Programs                                                                        •Voter Identification



Source: OIG Analysis

The multifunctionality of the Global Card, in combination with its ability to communicate
via contact and contactless readers and its capability to be updated dynamically, ensures
that the card will be able to act as a platform for multiple application solutions. However, it
is important to note that the addition of each of these features will likely increase the
card’s cost of production. Finally, the digital revolution has undoubtedly empowered
consumers, enabling them to choose how and with whom they transact and communicate
based on personal preferences. The Global Card would closely follow this trend.
Consumer choice will drive this offering. The card itself would be optional, as would each
of its applications and security and privacy settings.

Figure 1 illustrates the Global Card in its credit card-like form and identifies its basic
features and functionalities. Each of these will be discussed in greater detail in the
following sections of this paper.




                                                                          3
U.S. Postal Service Office of Inspector General                                                    February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                        RARC-WP-12-006


Basic Features

While the digital revolution has had many positive socioeconomic impacts, it has also
been synonymous with a rise in security and privacy concerns. In the digital sphere, these
concerns often surround the lack of adequate authentication measures. The Global Card
could potentially offer a solution to this problem by serving as a portable electronic
identification (eID) system.

In addition to containing stored basic information about the user, such as name, date of
birth, and physical residence, as an eID, consumers could also have the option of
                                 obtaining two digital certificates. One would be used for
Consumers could also have
the option of obtaining two      electronic authentication, while the other would provide
digital certificates, one to be  the user with a digital signature; both certificates would be
used for electronic              stored on the card’s microprocessor. The eID function of
authentication, while the        the Global Card could then be used by any number of
other provides the user with     other public and private sector applications through
a digital signature.             partnership agreements including signing income tax
                                 declarations, providing medical records, accessing both
federal and local government services, and making purchases (especially for peer-to-peer
transactions).

A number of foreign countries are presently exploring the use of eID cards as a platform
for a broad range of services (see Table 1 for a sample of countries implementing an eID
system). A more in depth analysis of the Global Card may involve further exploration of
foreign eID systems to better understand the benefits and obstacles of an eID application.

                                   Table 1: eID Systems in Other Countries
Country           Digital        Digital    Government     Biometric    Health     Transactions/   Mobile       Private
               Authentication   Signature    Services                  Records       Financial                  Sector
                                                                                                              Alternative
Austria                                                                                         
Belgium                                       
Denmark                                                                               
Estonia                                                                                            
Malaysia                                                                                         
Norway                                                                                                         
Saudi Arabia                                                 
Source: OIG Analysis based on Explaining International Leadership: Electronic Identification Systems, 2011.


The Global Card would additionally serve as the access key to current and future Postal
Service infrastructure and services. For example, the card could be used to access
gopost or authenticate a user to perform a change of address. Additionally, the card could
be used in reverse hybrid mail applications or the purchase of stamps. With regard to
future services, the card, in combination with its eID functions, could be used in
authentication and credentialing for the eMailbox system proposed and defined by RARC


                                                          4
U.S. Postal Service Office of Inspector General                                                    February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                        RARC-WP-12-006


in its white papers, the Postal Service Role in the Digital Age Part 2: Expanding the Postal
Platform6 and eMailbox and eLockbox: Opportunities for the Postal Service.7 The secure
nature of the Global Card would render it a natural extension of the RARC proposed
eLockbox, providing a conveniently portable version of the data storage service,
accessible at any PC or smart phone with a smart card reader.

Optional Features

The Global Card is intended to be an open and flexible        The Global Card is intended
platform, encouraging innovation and the development of to be an open and flexible
additional applications by third parties. As with any         platform, encouraging
platform, the success of the Global Card will be defined      innovation and the
by positive network effects.8 In order to obtain a critical   development of additional
mass, the Postal Service is uniquely positioned to work       applications by third parties.
with other government agencies to invest in optional
eGovernment applications for its smart card product. For example, users could opt to
receive tax refunds, Social Security checks, food stamp credits, and other government
benefits via the Global Card. The card’s digital signature function could be used to sign
official documents such as a passport form, as well as a tool for other innovative
eGovernment services such as online voting.

The digital revolution has sparked a retail shift toward the buying and selling of goods
through eCommerce. As the shift continues, the card would fill the need for a reliable,
private, and secure method for both consumers and sellers to authenticate one another.
Additionally, the card could serve as an eWallet, allowing consumers to store information,
such as credit card accounts, and cash needed for purchasing products online or in
person. Finally, the Global Card could offer consumers a convenient way to consolidate
multiple-vendor loyalty programs onto a single, easy-to-manage card.

Once again, given the increased security of smart cards relative to magnetic stripe cards
(or the user and password identity management system traditionally used online), the
Global Card could offer a valuable vehicle for secure and portable data storage with
processing capability. For example, a user’s healthcare and medical records, in addition
to insurance information, could be stored and updated on the Global Card. Beyond its
day-to-day convenience, such an application could be invaluable in the event of an
emergency when quick access to one’s medical history is needed.




6
  U.S. Postal Service Office of Inspector General, The Postal Service Role in the Digital Age Part 2: Expanding the
Digital Platform, Report No. RARC-WP-11-003, April 19, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-
003.pdf
7
  U.S. Postal Service Office of Inspector General, eMailbox and eLockbox: Opportunities for the Postal Service,
Report No. RARC WP-12-003, November 14, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-12-003.pdf.
8
  Positive network effects are present when the value of the network to its users increases as the network’s user base
grows.


                                                          5
U.S. Postal Service Office of Inspector General                              February 13, 2012
The USPS Global Card: A Conceptual Analysis                                  RARC-WP-12-006


There are numerous other applications that could be optionally loaded onto the Global
Card should the user opt for them. For example, the card could serve as an ID and
access key for university students, including such features as physical and network
access to university resources for authorized students. An eAllowance application or
 The Global Card would be         prepaid card capability could provide parents with a
 consumer-centric; allowing       convenient way to manage student spending and perform
 users to opt into                card fund-loading and reloading with cash or electronic
 applications based on            fund transfer as needed. Alternatively, the Global Card
 personal preference and          could serve as a single sign-on access key in partnership
 need.                            with state and local governments, providing services such
as paying traffic and parking citations, water bills, or property taxes. Additionally, the
Global Card could be used as identification for public transportation and toll payment
accounts, similar to an E-Z Pass Toll card.

The functional possibilities of the card are endless. As an open and flexible platform, the
Global Card is intended to provide third parties with an appropriate forum to innovate and
provide consumers with any number of useful applications, some of which have been
mentioned above, while many others have yet to be imagined. It is, however, also
important to emphasize that the Global Card would be consumer-centric, allowing users
to opt into applications based on personal preference and need. The Global Card would
offer greater convenience and efficiency in both physical and digital transactions than
many currently available options, while also providing a vehicle for the secure storage of a
user’s personal and account information.

Security
In addition to their convenience, smart cards offer an increased level of security and
privacy unmatched by traditional magnetic stripe cards and online username and
password identity management systems. By storing information           A USPS-offered
internally, rather than externally, smart cards are significantly      smart card could
more difficult to duplicate than their magnetic stripe counterparts.   provide consumers
Similarly, authentication by smart card eliminates much of the risk with a powerful
associated with identity theft due to user error such as poor          antifraud and
password choice and repeated passwords across multiple                 identity theft
accounts. As a result, a USPS-offered smart card could provide         prevention tool.
consumers with a powerful antifraud and identity theft prevention tool.
There traditionally has been a strong cultural inclination in the United States to reject a
centralized, government-sponsored ID management system. Therefore, it will be
necessary to clearly communicate the security and privacy benefits of the Global Card, as
well as to set up a strong policy infrastructure that supports and maintains these benefits
before card implementation. Additionally, in accordance with the trend toward consumer-
centric communications and transactions, providing consumers with complete control and
choice over card security and privacy settings beyond those defined by the card’s
operating system would also likely mitigate potential apprehension regarding a USPS-
offered Global Card.



                                                  6
U.S. Postal Service Office of Inspector General                                                   February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                       RARC-WP-12-006


For example, by allowing users to choose from several scalable security and privacy-level
options, ranging from a low to high-level, and to further personalize these settings based
on individual preference, the consumer maintains absolute control over the information
stored on the card, including the type of information, whether that information is backed-
up, and where that back-up occurs. Specifically, if a user opts for a higher-level security
setting that requires use of a biometric indicator, such as a thumbprint to access sensitive
files, the user may also choose whether this print is stored solely on the card or also
backed-up in an external government database.9
There are numerous other ways smart cards such as the proposed Global Card can
increase privacy and security for both physical and digital transactions. For example, a
smart card enables multifactor authentication in transactions and access control.
Multifactor authentication refers to the use of two or more authentication factors, which
may include something the user knows (e.g., password or PIN) or something the user is
(e.g., biometric characteristic such as a thumbprint), in addition to something the user has
(e.g., the Global Card) before the card can be accessed or used in a transaction.
Additionally, the Global Card may limit the amount of data that is revealed in transactions.
Specifically, the card may be setup to provide binary (e.g., “yes” or “no”) responses to
questions by an outside party about the user’s identity or some attribute of that identity.
For example, when confirming that a person is 21 years old, the answer returned to the
questioning party would be “yes” or “no”; divulging one’s date of birth is not necessary.
Similarly, because the Global Card enables users to link their digital or eMailbox address
to their physical address, users may maintain physical address anonymity by providing
the digital equivalent in transactions requiring physical address authentication.
Regardless of communications mode, the card would have to employ superior encryption
to maintain security.
Smart cards also allow for a number of other security and privacy control precautions to
be established. In particular, smart cards provide a greater level of access control by
enabling users to restrict data released to authorized service providers. For example, a
user could specify that medical records only be released to or updated by his/her
personal doctor. Additionally, stored and transmitted data may be encrypted so that only
parties with a valid key may access the data. Biometric data such as a thumbprint may
also be stored on the card to be used in authentication procedures in an effort to reduce
identity theft.
In terms of redundancy and back-up considerations, given the large amount and
sensitivity of the data that could be stored on the Global Card, the user may choose
whether or not the card’s memory should be backed-up and where that back-up should
be stored. Because the embedded chip is a microprocessor, data stored on the card is
segmented, preventing unauthorized applications from accessing another application’s
data and enabling users to choose varying levels of security on a file-by-file basis.



9
  Daniel Castro, Explaining International Leadership: Electronic Identification Systems, The Information Technology &
Innovation Foundation, September 2011, http://www.itif.org/files/2011-e-id-report.pdf.


                                                          7
U.S. Postal Service Office of Inspector General                                                      February 13, 2012
The USPS Global Card: A Conceptual Analysis                                                          RARC-WP-12-006


Finally, the Postal Service is well-positioned to provide Global Card users with a level of
security consistent with the needs of any card carrying sensitive, personal information.
First, a readily available, multichannel infrastructure is accessible to users needing to
report a lost or stolen card through the well-established physical presence of Post Office
locations across the country, the Postal Service online access point at usps.com, and via
1-800-ASK-USPS. Second, the Postal Service’s law enforcement component uniquely
provides a legally authorized and experienced mechanism through which Global Card
consumers would be protected against criminal intent such as fraud or identity theft.
The Registration Process
Should the Postal Service choose to pursue a multifunction smart card product such as
the Global Card, Figure 2 presents each step in the card registration process:
                        Figure 2: The USPS Global Card Registration Process


               STEP I                  • The Global Card is offered on an "opt-in" basis to consumers 18 and older.
                                       • Users indicate whether they would like to opt into the e-ID application of the
   The consumer opts in for the          card and choose which of the digital certificates they would like to obtain.
     USPS Global Card via an           • Additionally, during this step users will have the opportunity to link their
    online registration process.         USPS provided eMailbox to the card.


                                       • The consumer has the option of completing in-person verification at a Post
                                         Office or with a mail carrier in the consumer's home or at one of many
              STEP II                    convenient and temporary kiosks staffed by postal employees.
   The consumer completes in-          • During in-person verification, the consumer will be required to provide proof
   person verification at a Post         of registration (generated upon completion of Step I), a bill or statement
                                         addressed to him/her, and a government issued ID.
   Office or with a mail carrier.
                                       • The clerk or carrier collects any biometric information the user wishes to
                                         include on the card.


                                       • Once registered and verified, the Global Card is issued to the consumer at
            STEP III                     the Post Office or sent to the consumer's physical address via Priority Mail
   The Global Card is issued to          with Signature Confirmation.
         the consumer.                 • A smart card reader may also be purchased at the time of registration and
                                         delivered with the card if the consumer chooses.



            STEP IV                    • Once the card is issued, the consumer activates the card online.
   The consumer activates the          • The consumer may also opt into additional optional applications.
    card and sets up security          • Security preferences, including security and privacy level and other
     settings and additional             features, such as whether the card's memory is backed-up on a PC or an
      optional applications.             external card management server, are specified.


                                       • After card set-up, the user is able to access and manage the Global Card
             STEP V                      anywhere and anytime through computers and mobile devices using a
                                         smart card reader.
   The consumer accesses and           • The card's dynamic application operating system enables users to update
     manages the Global Card             and download applications and security settings and features after card
    from a computer or mobile            issuance, as they become available.
             device.                   • If the card is lost or stolen, the consumer may terminate, erase, and replace
                                         the card at a Post Office, online, or by calling 1-800-ASK-USPS.

Source: OIG Analysis




                                                        8
U.S. Postal Service Office of Inspector General                               February 13, 2012
The USPS Global Card: A Conceptual Analysis                                   RARC-WP-12-006


Business Model
Though this paper outlines a wide range of potential applications, not all of these would
have to be launched simultaneously. Depending on cost, complexity, and technology
requirements, services utilizing the Global Card platform could be phased in over time.
The card’s liability would have to be designed to minimize risk to the Postal Service as
well as assigning liability to partners when appropriate.

Critical to the launch of any new product is the potential for financial viability. The Global
Card should eventually generate a new line of revenue which could be developed through
two sources. First, consumer fees would be generated from a variety of services provided
through the card. The basic card could either be issued for a minimum charge and would
include services such as electronic identification, a digital signature,
authentication/credentialing for an eMailbox, and serving as an access key for postal
services. However, additional fees could be charged for optional or add-on services
including the incorporation of biometric data, card insurance and replacement, archiving
and/or mobile storage, redundancy/back-up services, currency transaction fees for
depositing or cashing digital money, and use for contactless payment such as the
Washington Metro’s Smartrip card or the popular E-Z pass toll card.

A second and potentially more lucrative source of revenue is through partners interested
in providing additional services on the card. Such an arrangement would also help to
mitigate risk at a time when the Postal Service is continuing to operate at a significant
loss. Revenue sharing, an area in which the Postal Service already has significant
experience, is possible in a wide range of products including loyalty programs (e.g.,
hotels, airlines, grocery stores); digital currency partners such as Visa, Moneygram, and
PayPal; healthcare and insurance companies; and even federal, state, and local
governments who want to use the card’s digital signature, authentication, and identity
binding features to conduct on-line business with citizens. The Postal Service could share
proceeds with partners from those services that customers select.

The Global Card will not be the only multifunction smart card on the market for
consumers. Other providers will offer similar functions and services. The core purposes
of the card – an address-based digital authentication tool providing postal services, a
gateway to eGovernment, and digital services to the underserved – is parallel to the
services that the Postal Service has provided in the physical world.

Conclusion
The Postal Service holds a unique position that will present it with numerous opportunities
to bridge the market gaps and shortcomings of the current Internet-based economy. The
Global Card offers one solution to today’s inadequate security and privacy settings in
digital and even physical communications and transactions, while also improving the
convenience and efficiency with which these transactions are executed. This paper
presents a unique opportunity for the Postal Service to leverage its valuable assets and
its mandated role, while also improving the quality of life for American citizens in a rapidly
changing and increasingly mobile world.


                                                  9
